No. 19-532

 

IN THE

Supreme Court of the United States

UNITED STATES,

Petitioner,
Vv.

STATE OF CALIFORNIA, ef al.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,943 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 20, 2019.

Colin Caseyllingen

Wilson-Epes Printing Co., Inc.

 
